          OFFICE OF INSPECTOR GENERAL 




                                 Catalyst for Improving the Environment


Audit Report



       Promoting Tribal Success
       in EPA Programs
       Report No. 2007-P-00022

       May 3, 2007
Report Contributors:	              Kevin Lawrence
                                   Jennifer Hutkoff
                                   Madeline Mullen
                                   Robert Adachi
                                   Janet Kasper




Abbreviations

EPA            U.S. Environmental Protection Agency
OIG            Office of Inspector General
DOI            U.S. Department of the Interior




Cover photo:     Wolf River, Wisconsin (EPA OIG photo)
                       U.S. Environmental Protection Agency                                              2007-P-00022

                                                                                                           May 3, 2007

                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review              Promoting Tribal Success in EPA Programs

At the suggestion of the
U.S. Environmental Protection        What We Found
Agency (EPA) Administrator,
the Offices of Inspector            Tribes have made progress in overcoming barriers to successful management of
General for EPA and the             environmental programs. Innovation is the key for Tribes to maximize the
U.S. Department of the Interior     effectiveness of their programs and overcome barriers. The 14 visited Tribes
(DOI) performed a joint audit       provided examples of innovative practices, including:
to identify Tribal positive
practices. The detailed joint          Collaboration and Partnerships. Many of the successful projects result
report is provided separately.         from efforts to foster good communication and positive relationships with
The purpose of this additional         others. Tribes work cooperatively with Federal agencies, other Tribes, State
report is to provide                   and local governments, educational institutions, and the private sector.
recommendations to assist EPA
in better managing Tribal              Education and Outreach. Tribes educate the community regarding 

environmental programs.                environmental programs. Further, Tribes value community input and 

                                       understand that project success often depends on community support. 

Background
                                       Expanding Resources. Based on its size, capacity, and structure, each of the
There are more than 560                visited Tribes has its own processes for finding alternative sources of revenue
Federally recognized Tribes in         to ensure sustainability of natural resource and environmental programs.
the United States. Each Tribe
is an individual, sovereign         We based our findings and recommendations in this report on the information
government unique in structure      contained in the joint EPA-DOI report Tribal Successes: Protecting the
and culture. EPA funds tribal       Environment and Natural Resources. That report provides details on specific
core environmental programs         successful practices implemented by each of the 14 visited Tribes.
through the General Assistance
Program.                             What We Recommend
For further information,
Contact the EPA Office of           To further help Tribes build on successful practices, we recommend that the EPA
Congressional and Public            Assistant Administrator for Water:
Liaison at (202) 566-2391.
                                       •   Work with Tribes to promote collaboration and partnerships.
To view the full EPA report,
click on the following link:           •   Identify and make available relevant education and outreach materials.
www.epa.gov/oig/reports/2007/          •   Work with Tribes to identify economic resources and funding alternatives.
20070503-2007-P-00022.pdf
                                    The Agency concurred with the recommendations and agreed that the practices
To view the joint EPA-DOI report,   outlined will lead to Tribal successes.
click on the following link:
www.epa.gov/oig/reports/2007/
20070503-2007-P-00022JT.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF 

                                                                                   INSPECTOR GENERAL




                                           May 3, 2007

MEMORANDUM

SUBJECT:       Promoting Tribal Success in EPA Programs
               Report No. 2007-P-00022

TO:            Benjamin Grumbles
               Assistant Administrator, Office of Water

The Offices of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA) and
U.S. Department of the Interior (DOI) have completed a joint report on Tribal positive practices
related to environmental and natural resource programs. We are separately providing a copy of
that report, Tribal Successes: Protecting the Environment and Natural Resources. This
additional report provides recommendations specifically to EPA to assist it in promoting Tribal
success.

This report contains findings that describe the problems the OIG has identified and corrective
actions the OIG recommends. This report represents the opinion of the OIG and does not
necessarily represent the final EPA position. EPA managers will make final determination on
matters in this report in accordance with established audit resolution procedures.

The estimated EPA OIG cost of this report – calculated by multiplying the project’s staff days by
the applicable daily full cost billing rates in effect at the time – is $473,283.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www/epa/.gov/oig.

If you or your staff have any further questions, please contact me at 202-566-0847 or
roderick.bill@epa.gov; or Janet Kasper, Director, Assistance Agreement Audits, at 312-886-3059
or kasper.janet@epa.gov.



                                                             Bill A. Roderick
                                                             Acting Inspector General
Purpose
At the suggestion of the U.S. Environmental Protection Agency (EPA) Administrator, the
Offices of Inspector General for EPA and the U.S. Department of the Interior (DOI) performed a
joint audit to identify Tribal positive practices for managing environmental programs. The
purpose of this separate report is to provide recommendations to assist EPA in better managing
Tribal environmental programs. The findings and recommendations are based on information in
the joint EPA-DOI report, Tribal Successes: Protecting the Environment and Natural Resources.

Background
There are more than 560 Federally recognized Tribes in the United States. Currently, these
Tribes hold more than 50 million acres of land, or approximately 2 percent of the United States.
Each Tribe is an individual, sovereign government unique in structure and culture. As a result,
each Tribe operates its programs differently. Common differences include varying goals and
objectives, administrative systems, funding resources, and the capacity to implement projects.

Land has always had great spiritual and cultural significance for Tribes. To preserve the land,
Tribes are committed to implementing environmental and natural resource programs. These
programs include internal environmental regulations. Tribes address such issues as solid and
hazardous waste management, safe drinking water, sanitation, subsistence hunting and fishing,
and cultural heritage preservation.

Within EPA’s Office of Water, the American Indian Environmental Office coordinates the
Agency-wide effort to strengthen public health and environmental protection in Indian Country,
with a special emphasis on building Tribal capacity to administer their own environmental
programs.

Scope and Methodology
We performed our work in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States. We identified general activities administered through
EPA Program Offices and DOI Bureaus related to Tribal implementation of environmental and
natural resource programs. We visited 14 Tribes to gain an understanding of how they
implement environmental and natural resource programs. We identified factors that contributed
to their success. Further details on our scope and methodology are in the joint EPA-DOI report,
Tribal Successes: Protecting Environment and Natural Resources.

Results of Audit
Tribes have made progress in overcoming barriers through innovative practices. Innovation is
the key for Tribes to maximize the effectiveness of their programs. Innovative practices are
consistent with the EPA Administrator’s Principles to Accelerate the Pace of Environmental
Protection. The second principle, Innovation and Collaboration, states that meeting today's
environmental challenges requires new approaches. It also states that EPA will identify and



                                                1

foster approaches that promote environmental stewardship and produce results though innovation
and collaboration.

The joint EPA-DOI report describes the innovative practices that the 14 Tribes we visited
successfully used to implement environmental programs. Common practices the Tribes used to
successfully implement their programs included:

   •	 Collaboration and Partnerships. Tribes achieve environmental goals by working
      cooperatively with Federal agencies, other Tribes, State and local governments,
      educational institutions, and the private sector. One Tribe worked extensively with
      non-profit organizations, other Tribes, and local municipalities to protect water. Tribal
      successes increase Tribal influence and enhance their reputation as protectors and
      stewards of nature and the environment.

   •	 Education and Outreach. Tribes educate the community regarding environmental
      programs. Tribes have produced educational materials, such as booklets, to disperse
      important information. Education and outreach garner community support and
      understanding of issues facing the Tribes.

   •	 Expanding Resources. Tribes strive for economic sustainability while ensuring a
      balance between economic development and resource preservation. By developing and
      cultivating relationships with non-profit organizations, Tribes have used such
      organizations as alternative funding sources. Tribes are also able to expand the scope and
      sustainability of environmental programs by applying for grants from multiple sources.

The innovative practices help Tribes overcome barriers to successful management of
environmental programs. Common barriers include:

   •	   Resource limitations. Tribes are continually looking for funds to initiate and
        successfully implement programs. Limited funding is especially problematic for Tribes
        with a limited ability to generate their own funds. Some Tribes consist of only a few
        thousand people or less.

   •	   Administrative and Managerial Requirements. Tribes face the challenge of
        complying with rules and regulations that vary among Federal agencies. Procedures and
        processes that Tribes use to meet one agency’s requirements may not apply when dealing
        with another agency.

   •	   Legal and Regulatory Issues. Federal program regulations limit the use of funds to
        particular activities or functions. This limitation may affect Tribes’ ability to manage
        their programs, and in some cases Tribes have refused funding because of it. In other
        cases, confusion arises when authority overlaps among multiple Federal agencies.

   •	 Communication and Relationships. Non-Tribal officials do not always consider unique
      Tribal cultures. Some Tribes believe that Federal officials do not adequately understand
      Tribal sovereignty or the Federal trust responsibility. Further, Federal agencies do not
      always coordinate when they share program oversight.


                                                 2

Tribes are able to overcome barriers and achieve environmental success through innovative
practices. EPA can take further actions to assist Tribes in successfully implementing
environmental and natural resource programs and overcoming common barriers.

Recommendations
To further help Tribes build on successful practices, we recommend that the EPA Assistant
Administrator for Water:

   1. 	 Work with the Tribes to promote place-based collaboration and partnerships in line with
        the Administrator’s principle for innovation and collaboration.

   2. 	 Identify and make available education and outreach materials relevant to Tribes.

   3. 	 Work with Tribes to identify economic resources and alternatives to fund future 

        activities.


EPA Response and OIG Comment
The Agency concurred with the recommendations and agreed that the practices outlined in the
report will lead to Tribal successes. The Agency also agreed to perform the following actions
related to the recommendations above:

   •	 Continue to promote innovation and collaboration on all levels of the EPA Tribal 

      Program. 


   •	 Compile a list of all materials produced at EPA that are relevant to Tribal culture and
      determine the need for any additional printings or distribution as well as the need for
      developing any new materials.

   •	 Consider and adopt all recommendations in the Innovative Funding Workgroup report to
      be completed in 2007, promoting the identification of economic resources and alternative
      funding sources.

We recognize the Agency’s responsiveness to the audit findings and recommendations and its
willingness to assist Tribes with their environmental programs. In responding to the final report,
the Agency needs to provide dates for completing its proposed actions for recommendations 2
and 3. The Agency’s complete response is included in Appendix A.




                                                3

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                        BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed To
    No.      No.                          Subject                      Status1        Action Official           Date      Amount      Amount

     1        3     Work with the Tribes to promote place-based           O        Assistant Administrator
                    collaboration and partnerships in line with the                       for Water
                    Administrator’s principle for innovation and
                    collaboration.

     2        3     Identify and make available education and             O        Assistant Administrator
                    outreach materials relevant to Tribes.                                for Water

     3        3     Work with Tribes to identify economic resources       O        Assistant Administrator
                    and alternatives to fund future activities.                           for Water




1    O = recommendation is open with agreed-to corrective actions pending;

     C = recommendation is closed with all agreed-to actions completed;

     U = recommendation is undecided with resolution efforts in progress 





                                                                              4

                                                                                  Appendix A




MEMORANDUM


SUBJECT:       Promoting Tribal Success in EPA Programs Assignment No. 2006-302

FROM:          Benjamin H. Grumbles
               Assistant Administrator

TO:            Janet Kasper, Director
               Assistance Agreement Audits

        Thank you for the opportunity to respond to the draft audit report titled Promoting Tribal
Success in EPA Programs, Assignment No. 2006-302. It is my understanding that this draft audit
is based upon information obtained during development of the Draft Report, Tribal Successes:
Protecting the Environment and Natural Resources on positive tribal practices related to
environmental and natural resource programs which is a joint effort of the Offices of Inspector
General (OIG) of the U.S. Environmental Protection Agency (EPA) and the Department of the
Interior (DOI) and which you have also forwarded.

       Your three audit recommendations are well received, and I am in agreement that the three
successful practices you identify do, in fact, lead to tribal program successes. As your companion
Draft Report determined, these practices are currently deeply incorporated within the EPA’s
Indian Program both at the American Indian Environmental Office (AIEO) and in the EPA
program offices working with tribes.

        Nevertheless, I recognize that we must continually strive to improve our progress. As
National Program Manager for the EPA Indian Program, I therefore concur with the
recommendations and suggest several actions to sustain and increase the currently successful
practices that the EPA Indian Program utilizes during its interactions with tribes.

IG Recommendation 1: Work with the Tribes to promote place-based collaboration and
partnerships in line with the Administrator’s principle for innovation and collaboration.

Concurring Response 1: The Administrator’s call for innovation and collaboration across the
Agency has been long instituted within the EPA Indian Program and in the manner in which
tribes conduct business. As the draft audit states, “innovative practices help Tribes overcome



                                                 5

barriers to successful management of environmental programs.” The historical lack of program
funding to tribal efforts has resulted in the need to find mechanisms that work.

        EPA tribal collaboration occurs on many levels. Within EPA, AIEO and our program
offices work with numerous tribal advisory groups including those for toxics, pesticides, air,
water, solid waste and the National Tribal Caucus of the National Tribal Operations Committee
on budgetary and co-regulator matters. EPA also seeks out other fora for collaboration as
appropriate. EPA agrees that success in Indian country requires more than collaboration and
partnership with federal partners alone, and so we continue to believe in one of the bedrock
principles of the 1984 EPA Indian Policy which is to “encourage cooperation between tribal,
state, and local governments.” The 1984 Indian Policy states it best by saying “in the field of
environmental regulation, problems are often shared and the principle of comity between equals
and neighbors often serves the interests of both.” AIEO has long tracked partnerships and
voluntary agreements as one indicator of current and future program success.

         As the Draft Audit indicates, to make partnerships work place-based personnel are a
necessary component to success. Since 1992 EPA has worked to promote place-based activity
through EPA’s Indian General Assistance Program (IGAP) which strives to provide base funding
for all tribes to create an environmental presence; this literally means a tribal government staff
position in many cases. The program goal has consistently been to provide base funding for all
tribes desiring such assistance. Currently approximately 500 tribes receive funding.

Actions under IG Recommendation 1. EPA will continue to promote innovation and
collaboration on all levels of the EPA Tribal Program.

IG Recommendation 2: Identify and make available education and outreach materials relevant to
Tribes.

Concurring Response 2: As EPA has done in the past, non-tribal materials will be adjusted for
the tribal audience as needs arise and program offices will continue to develop tribal culturally
relevant materials. EPA will also continue to support tribal efforts to create their own culturally
relevant materials by making available EPA funding and EPA staff time as allowable for such
activities. As an indication of the effectiveness of EPA’s actions I would note that the award-
winning, culturally-relevant lead-based paint educational booklet “How Mother Bear Taught the
Children about Lead” highlighted in the draft IG Report, Tribal Successes: Protecting the
Environment and Natural Resources was developed by the tribe with EPA financial support and
the input of several EPA staff members including one of my staff at AIEO.

Actions under IG Recommendation 2. EPA’s Indian Program Policy Council (IPPC) will compile
a log of all tribal culturally relevant materials that have been produced at EPA and direct AIEO
to review this information to determine the need for additional new materials and/or additional
printings or distributions of existing materials. I will ask AIEO to work with the Tribal Caucus of
the National Tribal Operations Committee to conduct a separate review and make the same
recommendations.




                                                 6

IG Recommendation 3: Work with Tribes to identify economic resources and alternatives to fund
future activities.

Concurring Response 3: Historically, the economic conditions of tribes within the United States
has hindered the success of environmental programs in Indian country. The EPA Indian Program
recognizes this unfortunate fact and works to provide alternatives in positive, innovative ways to
accomplish the goal of environmental protection. While much of this interaction is outside the
scope of direct EPA staff interaction, tribal personnel funded under the IGAP program make
tremendous progress in seeking alternative and supplemental funding. Under the auspices of the
IPPC, EPA created a cross-program workgroup to examine innovative and alternative funding
sources and ideas. This workgroup has nearly completed its report and the information will be
considered by the IPPC for further action.

Action under IG Recommendation 3: Upon completion of the Innovative Funding Workgroup
report in 2007, the IPPC will consider all recommendations and adopt those promoting the
identification of economic resources and alternate funding sources for environmental activities.

Overall it gives me great pleasure to know that the 20 year EPA-Tribal partnership that was
 instrumental in the creation of the 1984 Indian Policy, the development of EPA’s Indian
 Program, including AIEO, in the 1990’s, and which continues to this day had it right from the
 beginning. EPA’s current role, and my goal as National Program Manager, is simply to
 continue the successes within this proven framework.




                                                7

                                                                            Appendix B


                                    Distribution

Office of the Administrator
Assistant Administrator for Water
Agency Followup Official (the CFO)
Agency Followup Coordinator
Audit Followup Coordinator, Office of Water
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
General Counsel
Acting Inspector General




                                              8

